"Audit of the Pension Plan at a Terminated Medicare Contractor, Health Care Service Corporation,"(A-07-00-00112)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Pension Plan at a Terminated Medicare Contractor, Health
Care Service Corporation," (A-07-00-00112)
July 9, 2001
Complete
Text of Report is available in PDF format (475 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that about $2.1 million in excess pension assets at
Health Care Service Corporation (HCSC) should be remitted to Medicare because
of the closing of HCSC's Medicare segment of their pension plan.  The
HCSC was a Medicare contractor until their contract was terminated in 1998
and, as such, was allowed to claim Medicare reimbursement for their Medicare
employees' pension costs.  Regulations and the Medicare contracts provide,
however, that pension gains which occur when a Medicare segment of a pension
plan closes should be credited to the Medicare program.  Accordingly,
we recommended that HCSC remit about $2.1 million in excess pension assets
to the Medicare program.